Semiannual Report to Congress
October 1, 2010 – March 31, 2011



                                              May 2011




   Federal Election Commission - Office of Inspector General
          999 E Street, N.W. Suite 940, Washington, D.C. 20463
October 1, 2010 - March 31, 2011




                                     FEDERAL ELECTION COMMISSION
                                     WASHINGTON, D.C. 20463




            OFFICE OF THE CHAIRMAN
                                                                            May 19, 2011

                      The Honorable John A. Boehner
                      Speaker of the House of Representatives
                      Washington, D.C. 20515

                      Dear Mr. Speaker:

                              Pursuant to the Inspector General Act of 1978, as amended, the Federal Election
                      Commission submits the Ofﬁce of Inspector General’s Semiannual Report to Congress. The
                      report summarizes the activity of the FEC Ofﬁce of Inspector General (“OIG”) from October
                      1, 2010 through March 31, 2011. During this reporting period, the FEC’s Inspector General
                      completed, with the assistance of contract auditors, the annual audit of the FEC’s ﬁnancial
                      statements.

                              We are pleased to report that the Commission received an unqualiﬁed (or clean)
                      opinion on the required statements: the FEC’s Balance Sheet as of September 30, 2010, and
                      the related Statements of Net Costs, Changes in Net Position, Budgetary Resources, and
                      Custodial Activity for the year then ended. This marks the second consecutive year with no
                      material weaknesses identiﬁed. The auditors observed, however, two deﬁciencies in internal
                      controls. The response of FEC management to the issues noted by the auditors appears in the
                      report, which was issued on November 12, 2010.

                              During the semiannual period, the OIG completed, with the assistance of contract
                      auditors, the 2010 Follow-Up Audit of the Commission’s Privacy and Data Protection. This
                      follow-up audit was released in March 2011 and identiﬁed 15 ﬁndings. Management’s
                      responses to the ﬁndings and recommendations are discussed in detail in that follow-up audit
                      report.

                            The Commission appreciates and shares the Inspector General’s commitment to
                      sound ﬁnancial and management practices, and looks forward to continuing its cooperative
                      working relationship as management takes appropriate measures to improve operations of
                      the Commission. Copies of the Semiannual Report to Congress are being provided to the
                      Chairmen and Ranking Members of the FEC’s oversight committees.

                                                                            On behalf of the Commission,




                                                                            Cynthia L. Bauerly
                                                                            Chair

                      Enclosure




                                                                                                                     i
                                                              Office of Inspector General Semiannual Report to Congress




                                                 MANAGEMENT REPORT ON 
                        INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS
                                FOR THE SIX­MONTH PERIOD ENDING MARCH 31, 2011




                                                         Number of  Reports   Questioned Costs   Unsupported Costs

     A. Reports for which no management decision has             0                   0                  [0]
        been made by commencement of  the reporting 
        period


     B. Reports issued during the reporting period               0                   0                  [0]


        Subtotals (A + B)                                        0                   0                  [0]


     C. Reports for which a management decision was              0                   0                  [0]
        made during the reporting period


        (i) Dollar value of  disallowed costs                    0                   0                  [0]

        (ii) Dollar value of  costs not disallowed               0                   0                  [0]


     D. Reports for which no management decision has             0                   0                  [0]
        been made by the end of  the reporting period




     E. Reports for which no management decision was             0                   0                  [0]
        made within six months of  issuance




ii
October 1, 2010 - March 31, 2011




                                                 MANAGEMENT REPORT ON 
                                        INSPECTOR GENERAL ISSUED REPORTS WITH
                                     RECOMMENDATIONS TO PUT FUNDS TO BETTER USE
                                     FOR THE SIX­MONTH PERIOD ENDING MARCH 31, 2011




                                                                                                           Funds to be
                                                                                    Number of  Reports
                                                                                                         Put To Better Use

          A.   Reports for which no management decision has been made by the                0                   0
               commencement of  the reporting period


          B.   Reports issued during the reporting period                                   0                   0


          C.   Reports for which a management decision was made during the                  0                   0
               reporting period


               (i) Dollar value of  recommendations that were agreed to by                  0                   0
                    management

               ­   Based on proposed management action                                      0                   0

               ­   Based on proposed legislative action                                     0                   0


               (ii)  Dollar value of  recommendations that were not agreed to by            0                   0
                      management

          D.   Reports for which no management decision has been made by the end            0                   0
               of  the reporting period


          E.   Reports for which no management decision was made within six                 0                   0
               months of  issuance




                                                                                                                             iii
                          Office of Inspector General Semiannual Report to Congress




     This Page Intentionally Left Blank




iv
October 1, 2010 - March 31, 2011




                                     FEDERAL ELECTION COMMISSION
                                     WASHINGTON, D.C. 20463
                                     Office of Inspector General



                                           A Message from the Inspector General


                   This report summarizes the work completed by the Office of Inspector General (OIG) for
                   the semiannual reporting period October 1, 2010 – March 31, 2011. The activities
                   highlighted in this report demonstrate our continuing commitment to the promotion of
                   integrity, accountability, efficiency and effectiveness in the programs and operations of
                   the Federal Election Commission (FEC). It has been another fruitful six months for the
                   Office of Inspector General. I would like to commend all of the staff for the effort they
                   have expended in accomplishing our goals so far this fiscal year.

                   The annual financial statement audit, with the assistance of contract auditors, was
                   completed and the FEC received an unqualified opinion. The OIG completed a follow-up
                   audit, 2010 Follow-up Audit of Privacy and Data Protection, which was conducted to
                   ascertain whether the FEC had implemented the recommendations, contained in previous
                   OIG audit and inspection reports. We also conducted a peer review of another OIG
                   office and participated in the entrance conference for the peer review being conducted on
                   my office. At the end of this period, the fieldwork had been completed.

                   I would like to express my thanks to the staff of the OIG as they continued to produce
                   significant work that will have a positive impact on the FEC. Towards the end of this
                   reporting period our senior auditor, Irene Porter, resigned to accept an opportunity at
                   another federal OIG. Irene was an important member of the OIG team and her insight
                   and work ethic will be greatly missed. We all wish her success in her new endeavor.

                   With that being said, the OIG is down a staff position and I have indicated to the
                   Commissioners that I hope to fill that slot as soon as possible.




                   Lynne A. McFarland
                   Inspector General
                   Federal Election Commission


                   April 25, 2011




                                                                                                               v
                          Office of Inspector General Semiannual Report to Congress




     This Page Intentionally Left Blank




vi
October 1, 2010 - March 31, 2011




                                                        Table of Contents
�



      Executive Summary                                                                 1
      The Federal Election Commission                                                   3
      OIG Audit Activity                                                                5
      OIG Audit Follow-up Activity                                                      7
      OIG Peer Review Activity                                                         10
      OIG Hotline Information                                                          12
      OIG Investigations                                                               13
      Additional OIG Activity                                                          14
      Council of the Inspectors General on Integrity and Efficiency (CIGIE) Activity   15
      OIG Contacts                                                                     16
      List of Training, Meetings and Conferences Attended by OIG Staff                 17
      Reporting Requirements                                                           19
      Table I – Questioned Cost                                                        20
      Table II – Funds Put To Better Use                                               21
      Table III – Summary Of Audit Reports With                                        22
                  Corrective Actions Outstanding For More Than Six Months
      Appendix A: Peer Review Results                                                  23




                                                                                            vii
                     Office of Inspector General Semiannual Report to Congress




This Page Intentionally Left Blank
October 1, 2010 - March 31, 2011




                                                             Executive Summary
�



 The Inspector General Act of 1978, as amended,          addressed, the OIG has acknowledged that the FEC
 states that the Inspector General is responsible for    has made significant progress to address the many
 conducting audits, inspections, investigations, and     challenges in this area. Based on the FEC’s progress
 recommending policies and procedures that pro-          and achievements over the last seven years, the OIG
 mote economic, efficient, and effective use of agency   has concluded that Financial Reporting is no longer
 resources and programs that prevent fraud, waste,       a management challenge for FY 2010.
 abuse and mismanagement. The IG act also requires
 the Inspector General to keep the Commission and        LSC audited the balance sheet of the FEC as of
 Congress fully and currently informed about prob-       September 30, 2010 and the related statements of
 lems and deficiencies in the Commission’s opera-        net cost, changes in net position, budgetary resourc-
 tions and the need for corrective action.               es, and custodial activity (the financial statements)
                                                         for the year then ended and LSC expressed an un-
 This semiannual report includes the major accom-        qualified opinion on those statements.
 plishments of the Federal Election Commission
 (FEC) Office of Inspector General (OIG), as well as     For detailed information regarding the above audit,
 relevant information regarding additional OIG activi-   see the section entitled OIG Audit Activity (starting
 ties. The executive summary highlights the most         on page 5).
 significant activities of the OIG. Additional details
 pertaining to each activity (audits, hotline, and in-   The OIG also contracted with the IPA firm Cherry,
 vestigations) can be found in subsequent sections of    Bekaert, and Holland (CBH) to conduct a follow-up
 this report.                                            audit on a previously completed OIG audit, 2007
                                                         Performance Audit of Privacy and Data Protection
 The OIG completed the 2010 Financial Statement          - OIG-07-02. The contract focused on determining
 Audit in November. The audit was conducted by           whether the FEC has implemented audit recommen-
 Leon Snead & Company (LSC) under a contract with        dations contained in previously issued OIG audit/
 the OIG. As part of the process and for inclusion in    inspection reports on privacy. The follow-up audit
 the Performance and Accountability Report (PAR),        showed only three (3) of the nineteen (19) previ-
 the OIG compiled what we consider the most sig-         ous recommendations were closed and sixteen (16)
 nificant challenges facing management. The three        remain open. The final report for the follow-up audit
 management and performance challenges included          includes thirteen (13) findings and forty-five (45) rec-
 in the FY 2010 PAR were:                                ommendations. Ten (10) of the thirteen (13) findings
                                                         were repeated from prior audits, two (2) were modi-
   a Governance Framework                                fied repeat findings similar to prior audit findings, and
   a Human Capital Management                            there is one (1) new finding.
   a Information Technology Security                     As noted in the 2007 Performance Audit of Privacy
 The OIG removed a fourth management challenge,          and Data Protection, the contract auditors for the
 Financial Reporting, which had been reported            2010 follow-up audit identified the primary reason for
 as a challenge since FY 2004. Although all finan-       failure to progress privacy and data protection activi-
 cial management weaknesses have not been fully          ties at the FEC is the continued use of a shared ap-
                                                         proach to privacy management and accountability.


                                                                                                                1
                                                               Office of Inspector General Semiannual Report to Congress




Also since the 2007 audit, management continues            sections entitled OIG Hotline Information (page
to disagree with the recommendation of assigning a         12) and OIG Investigations (page 13).
single Chief Privacy Officer (CPO) to ensure direct
responsibility and accountability for privacy activi-
ties. Management believes that a single CPO is
not necessary, and having two CPOs is beneficial
because it affords the opportunity of having differ-
ing expertise and backgrounds amongst the privacy
team.

Based on the 2007 Performance Audit of Privacy
and Data Protection, the 2010 Follow-up Audit of
Privacy and Data Protection, and the OIG’s internal
knowledge of the agency’s progress of the privacy
program, the OIG believes the approach of shared
responsibilities, along with the CPOs’ full-time re-
sponsibilities, prevent efficient and effective progress
of the privacy and data protection program. In the
response to the current follow-up audit report, man-
agement did not concur with eight (8) of the forty-
five (45) recommendations, and concurred in part
with twenty (20) of the forty-five (45) recommen-
dations. For detailed information pertaining to the
follow-up audit, see the section entitled OIG Audit
Follow-up Activity (starting on page 7).

During this semiannual reporting period, no new
hotline complaints were opened, one (1) hotline
complaint, which required a significant number of in-
terviews, was closed with no further action. The OIG
has one (1) open hotline complaint as of the close
of this reporting period.

In addition, there is one (1) open investigation, and
one (1) investigation was closed. The closed inves-
tigation involved allegations that an employee’s gov-
ernment email account had been breached and that
a member of the employee’s family had received
harassing telephone calls. For more information per-
taining to hotline and investigation topics, see the



2
October 1, 2010 - March 31, 2011




                             the federal election commission
�



                                         In 1975, Congress created the Federal Election
                                         Commission to administer and enforce the Federal
                                         Election Campaign Act (FECA). The duties of the
                                         FEC, an independent regulatory agency, are to dis-
                                         close campaign finance information; enforce the pro-
                                         visions of the law; and oversee the public funding of
                                         Presidential elections.

                                         The Commission consists of six members who are
                                         appointed by the President and confirmed by the
                                         Senate. Each member serves a six-year term, and
                                         two seats are subject to appointment every two
                                         years. By law, no more than three Commissioners
                                         can be members of the same political party,
                                         and at least four votes are required for any offi-
                                         cial Commission action. The Chairmanship of the
                                         Commission rotates among the members each year,
                                         with no member serving as Chairman more than
                                         once during his or her term. Currently the FEC has
                                         a full complement of Commissioners – Cynthia L.
                                         Bauerly, Chair; Caroline C. Hunter, Vice Chair; and
                                         Commissioners Donald F. McGahn II; Matthew S.
                                         Petersen; Steven T. Walther; and Ellen L. Weintraub.




                                                                                             3
               Office of Inspector General Semiannual Report to Congress




    Office of Inspector General
�



           The Inspector General Act of 1978 (P.L. 100-504),
           as amended, states that the Inspector General is re-
           sponsible for: 1) conducting and supervising audits
           and investigations relating to the Federal Election
           Commission’s programs and operations; 2) de-
           tecting and preventing fraud, waste, and abuse of
           agency programs and operations while providing
           leadership and coordination; 3) recommending poli-
           cies designed to promote economy, efficiency, and
           effectiveness of the establishment; and 4) keeping
           the Commission and Congress fully and currently
           informed about problems and deficiencies in FEC
           agency programs and operations, and the need for
           corrective action.




4
October 1, 2010 - March 31, 2011




                                                                OIG Audit Activity
�



 Audit of the Federal Election Commission’s                the auditors; 3) monitoring the work of the auditors
 Fiscal Year 2010 Financial Statements                     activity; 4) examining audit documents and reports to
                                                           ensure compliance with GAGAS, and OMB Bulletin
 Assignment Number:         OIG – 10-01                    No. 07-04; and 5) other procedures the OIG deems
                                                           necessary to oversee the contract and audit.
 Status: Released November, 2010
 http://www.fec.gov/fecig/financial10.pdf                  The audit entrance conference was held on May 5,
                                                           2010. Representatives from the OIG, LSC, and FEC
 The Chief Financial Officers Act of 1990 (Public Law      attended the entrance conference and discussed
 101-576, commonly referred to as the “CFO Act”),          the audit scope, objectives, and ways to ensure an
 as amended, requires the FEC Office of Inspector          efficient and effective audit process. An audit time-
 General or an independent external auditor, as            line was established, along with requests to man-
 determined by the Inspector General, to audit the         agement for necessary documentation and informa-
 agency financial statements. Under a contract moni-       tion concerning the financial statements. The OIG
 tored by the OIG, Leon Snead & Company (LSC),             reviewed LSC’s audit planning methodology and in-
 an independent certified public accounting and man-       terim audit testing results and provided comments to
 agement consulting firm was awarded a five year           LSC. The OIG also coordinated and attended meet-
 contract to audit the FEC’s financial statements be-      ings with LSC and the FEC’s Chair and Vice Chair
 ginning in FY 2009.                                       to discuss the audit objectives and progress of the
                                                           audit. At the completion of final testing the OIG re-
 LSC was contracted to conduct the financial               viewed LSC’s final testing workpapers and provided
 statement audit following Generally Accepted              documented comments.
 Government Auditing Standards (GAGAS) and OMB
 Bulletin No. 07-04, Audit Requirements for Federal        LSC prepared several notices of findings and recom-
 Financial Statements, as revised. The audit contract      mendations (NFRs) which were reviewed by the OIG
 requires LSC to issue an opinion regarding whether        and then issued to FEC management for a response.
 the FEC’s financial statements and supplemental in-       During the audit, the OIG coordinated and attended
 formation are fairly presented in all material respects   regular biweekly audit status meetings with LSC and
 in accordance with Generally Accepted Accounting          FEC management; weekly meetings were held in the
 Principles. In addition, LSC audits internal controls     month of October as the audit neared completion.
 and compliance with laws and regulations for mat-
 ters relevant to the financial statements. The audit      The exit conference was held November 8, 2010.
 is completed in four phases: planning; review and         During the exit conference, LSC discussed with
 evaluation; testing (interim and final); and reporting    management the finalized issues that would be pre-
 and work paper delivery.                                  sented in the 2010 financial statement audit report. In
                                                           addition, LSC finalized the 2010 financial statement
 The OIG is responsible for oversight of the finan-        audit report - the report was issued November 12,
 cial statement audit, which includes: 1) reviewing        2010. The FEC received an unqualified opinion.
 the auditors’ approach and planning of the audit; 2)
 evaluating the qualifications and independence of



                                                                                                                5
                                                       Office of Inspector General Semiannual Report to Congress




Audit of the Federal Election Commission’s
Fiscal Year 2011 Financial Statements
Assignment Number:      OIG – 11-01
Status: In Progress
The Office of Inspector General has begun the plan-
ning process for the Federal Election Commission’s
annual financial statement audit. The OIG has ex-
ercised another option year with Leon Snead & Co.
to conduct the FEC’s 2011 financial statement au-
dit. The OIG has confirmed and approved the audit
team with LSC for the 2011 financial statement audit
and has scheduled the entrance conference for April
27, 2011.




6
October 1, 2010 - March 31, 2011




                                   OIG Audit Follow-up Activity
�



 2010 Follow-Up Audit of Privacy and Data                 Information; the auditors determined that seven (7)
 Protection                                               recommendations from the 2006 inspection were ful-
                                                          ly implemented (closed) and six (6) remained open.
 Assignment Number: OIG – 10-03
                                                          The OIG held a meeting with the CBH contractors on
 Status: Released March, 2011                             September 27, 2010 to discuss the general working
                                                          arrangements and provide background information
 http://www.fec.gov/fecig/
                                                          for the follow-up audit. A formal entrance conference
 documents/2010PrivacyReport.pdf                          with key FEC personnel responsible for privacy ac-
                                                          tivities was held on October 13, 2010. The contractor
 In September 2010, the OIG awarded a contract to
                                                          submitted a formal audit plan and the OIG approved
 the IPA firm Cherry, Bekaert & Holland (CBH) LLP to
                                                          the plan on October 27, 2010. Based on the approved
 conduct a follow-up audit on a previously completed
                                                          plan, the contractors requested interviews with per-
 OIG audit, 2007 Performance Audit of Privacy and
                                                          sonnel responsible for privacy activities as well as
 Data Protection – OIG-07-02 and a 2006 inspection
                                                          various documents that define and support FEC pri-
 of personally identifiable information within the FEC
                                                          vacy management.
 which was conducted by an IPA under contract with
 the OIG. The 2010 contract focused on determining
                                                          During the audit, the contractor met with both Co-
 whether the FEC has implemented audit recommen-
                                                          Chief Privacy Officers, and other members of the pri-
 dations contained in previously issued OIG audit/in-
                                                          vacy team to discuss the status of recommendations
 spection reports on privacy.
                                                          and privacy initiatives since the prior audits. The con-
 The 2006 Inspection Report on Personally                 tractors reviewed a number of documents relating to
 Identifiable Information provided FEC manage-            privacy and data protection to include:
 ment with thirteen (13) recommendations to correct
                                                            a	 FEC privacy and data protection policies, pro-
 privacy weaknesses identified during the review. In
                                                               cedures, standards, guidelines and bulletins;
 addition, in 2007 the OIG contracted with a different
 IPA to conduct a performance audit of privacy and          a	 Privacy reports produced by the FEC and pro-
 data protection policies and procedures and, spe-             vided to the Office of Management and Budget
 cifically, to determine if the FEC is complying with          (OMB) as part of the annual privacy reporting
 privacy requirements contained in section 522 of the          requirements;
 Consolidated Appropriations Act, 2005.
                                                            a	 Risk assessments performed on FEC systems
 The 2007 audit identified seven (7) significant issues        that may contain PII;
 and made thirteen (13) recommendations to ad-
                                                            a	 PII inventories of FEC divisions produced by a
 dress the audit findings, however FEC management
                                                               contractor in 2008 and 2009, and the associ-
 did not agree with two (2) findings (six (6) recom-
                                                               ated report assessing controls over PII for each
 mendations) included in the report. Also, the 2007
                                                               division;
 audit included a follow-up review of the thirteen (13)
 prior-year recommendations contained in the OIG’s          a	 Legal assessments conducted by the 

 2006 Inspection Report on Personally Identifiable             FEC Office of General Counsel on OMB 




                                                                                                                7
                                                             Office of Inspector General Semiannual Report to Congress




       memorandum released since December 2007           only three (3) of the nineteen (19) previous recom-
       on privacy and data protection;                   mendations were closed and sixteen (16) remain
                                                         open. The final report for the follow-up audit includes
    a	 Annual Privacy and IT Security training provid-
                                                         thirteen (13) findings and forty-five (45) recommen-
       ed to employees and contractors; and
                                                         dations. Ten (10) of the thirteen (13) findings were
    a	 Specialized training provided to FEC managers     repeated from prior audits, two (2) were modified re-
       on Systems of Records Notification (SORN) re-     peat findings similar to prior audit findings, and there
       porting requirements for systems containing PII   is one new finding.

Further, an after-hours walkthrough was conducted        As noted in the 2007 Performance Audit of Privacy
by CBH and OIG to determine whether physical             and Data Protection, the contract auditors for the
records containing PII and agency assets such as         2010 follow-up audit identified the primary reason for
desktop and laptop computers, which could ac-            failure to progress privacy and data protection ac-
cess PII, were adequately secured. Based on the          tivities at the FEC is the continued use of a shared
results of the walkthrough, the contractors commu-       approach to privacy management and accountabil-
nicated the results to the Co-Chief Privacy Officers,    ity. Also since the 2007 audit, management contin-
the Information System Security Officer, and the         ues to disagree with the recommendation of assign-
Physical Security Officer, recommending immediate        ing a single Chief Privacy Officer (CPO) to ensure
corrective action to secure PII and computers.           direct responsibility and accountability for privacy
                                                         activities. Management believes that a single CPO
A discussion meeting was held with FEC person-           is not necessary, and having two CPOs is beneficial
nel responsible for privacy activities on December 3,    because it affords the opportunity of having differ-
2010 to communicate the initial results of the follow-   ing expertise and backgrounds amongst the privacy
up audit. Following completion of fieldwork in early     team. In the response to the current follow-up audit
January 2011, notices of findings and recommenda-        report, management did not concur with eight (8)
tions (NFRs) were provided to management January         of the forty-five (45) recommendations, and con-
6th, 13th and 20th. An exit conference was held          curred in part with twenty (20) of the forty-five (45)
February 7, 2011 and, based on management’s writ-        recommendations.
ten and verbal responses to the NFRs, amendments
were made to the draft report. A draft report was pro-   Based on the 2007 Performance Audit of Privacy
vided to management on March 2, 2011 and official        and Data Protection, the 2010 Follow-up audit of
management response was received on March 16,            Privacy and Data Protection, and the OIG’s internal
2011. The final report was completed March 31, 2011      knowledge of the agency’s progress of the privacy
and made public on the FEC OIG internet website.         program, the OIG believes the approach of shared
                                                         responsibilities, along with the CPOs’ full-time re-
The 2010 contracted follow-up audit determined that      sponsibilities, prevent efficient and effective prog-
management had not fully implemented the out-            ress of the privacy and data protection program.
standing agreed upon actions included in the 2007        Without one full-time person committed to ensuring
Performance Audit of Privacy and Data Protection         1) proper handling of PII within the agency; 2) the
and the 2006 Inspection Report on Personally             FEC adheres to all required federal regulations; and
Identifiable Information. The follow-up audit showed     3) adequate oversight and monitoring of the privacy


8
October 1, 2010 - March 31, 2011




 and data protection program, the FEC will continue       The contractors selected an initial audit sample
 to face greater challenges and continuous risk to        and have commenced detailed testing to determine
 the agency, which is reflected throughout the issues     whether the recommendations have been fully im-
 identified in the follow-up audit report.                plemented. CBH has also held interviews with FEC
                                                          employees who are identified as Contracting Officer
                                                          Technical Representatives (CoTRs) and Points of
 2010 Follow-up Audit of Procurement and                  Contact (POCs) regarding their specific roles and
                                                          responsibilities for FEC contracts included in their
 Contract Management                                      sample selection. The procurement follow-up audit
                                                          is scheduled to be completed no later than May 31,
 Assignment Number:         OIG – 10-02
                                                          2011.
 Status: In Progress

 In September 2010, the OIG awarded a contract to
 the IPA firm of Cherry, Bekaert & Holland (CBH)
 LLP to conduct follow-up audits on a previously
 completed audit 2008 Audit of Procurement and
 Contract Management - OIG-08-02. The objective of
 the audit follow-up review was to determine whether
 management implemented the agreed actions for
 each of fifteen (15) recommendations and whether
 each of the nine (9) audit findings had been fully
 resolved.

 The OIG held a meeting with the CBH contractors
 on September 27, 2010 to discuss the general work-
 ing arrangements and provide background infor-
 mation for the follow-up audit. A formal entrance
 conference with key FEC personnel responsible
 for procurement activities was held on October 14,
 2010. Since then CBH staff has 1) reviewed current
 and prior FEC procurement policies and procedures;
 2) interviewed the FEC Contracting Officer on sever-
 al occasions; and 3) reviewed a sample of procure-
 ment files in order to gain an understanding of cur-
 rent procurement processes and develop a detailed
 audit plan. The contractor submitted draft audit plans
 to the OIG and a final audit plan was approved on
 March 3, 2010.


                                                                                                             9
                                                            Office of Inspector General Semiannual Report to Congress




                                                OIG Peer Review Activity
�



Peer Review of the U.S. Commodity Futures               The CFTC OIG provided an official written response
Trading Commission (CFTC) OIG                           to the FEC OIG on March 14, 2011. The FEC OIG
                                                        reviewed the CFTC OIG’s responses to the final
Assignment Number:      OIG – 10-04                     draft report and provided final comments. The FEC
                                                        OIG finalized the report and provided the final peer
Status: Completed March, 2011                           review report and comment letter to CFTC OIG on
                                                        March 31, 2011. The final peer review report con-
Inspectors General conduct audits in accordance         tained 29 suggested recommendations for CFTC
with Generally Accepted Government Auditing             OIG to improve their system of quality control.
Standards. Audit organizations conducting audits
in accordance with GAGAS are required to have an
independent peer review every three years. The ob-
jective of the peer review program is to ensure an
                                                        Peer Review of the Federal Election
audit organization’s internal quality control system    Commission OIG
adequately provides reasonable assurance that ap-
plicable auditing standards, policies, and procedures
                                                        Assignment Number:         N/A
are being followed.
                                                        Status: In Progress
The peer review entrance conference was held on
July 16, 2010 - fieldwork was performed August 3        In accordance with the Council of Inspectors
through 20, 2010. After the completion of fieldwork,    General on Integrity and Efficiency (CIGIE) Audit
the FEC Deputy IG and FEC OIG peer review team          Peer Review schedule, the Federal Maritime
held a discussion meeting with the CFTC IG and          Commission (FMC) Office of Inspector General
staff on August 27, 2010 to communicate the initial     is scheduled to perform a peer review of the
findings noted during the peer review. The FEC OIG      Federal Election Commission OIG for 2011. The
prepared the draft report and comment letter and        entrance conference for the peer review was held
provided the final drafts to CFTC OIG on December       on February 17, 2011. The FEC OIG completed
9, 2010.                                                Appendix A: Policies and Procedures and provided
                                                        the completed schedule and reference documents
The exit conference for the peer review was held        to FMC OIG for their review on February 18, 2011.
January 7, 2011 to discuss the draft report provid-
ed to CFTC OIG on December 9, 2010. The CFTC            The FMC OIG requested the workpapers from the
OIG provided written comments and suggested             peer review team who conducted the FEC OIG’s
changes to the draft report on January 14, 2011. The    prior peer review in 2008. The FEC Inspector
FEC OIG reviewed the comments and suggested             General provided approval to the prior peer review
changes provided by CFTC OIG and made appro-            team to release the 2008 peer review workpapers
priate adjustments to the draft report based on the     to FMC OIG for their review. The FMC OIG con-
documentation and evidence reviewed and meet-           ducted fieldwork at the FEC on March 22-23, 2011.
ings held during the peer review. The FEC OIG final-    During fieldwork, the FMC OIG selected and re-
ized the report and comment letter and provided the     viewed the FEC OIG’s Audit of the Commission’s
final documents to CFTC OIG on February 9, 2011.        Property Management Controls and the OIG’s


10
October 1, 2010 - March 31, 2011




 monitoring documentation of the 2010 Federal
 Election Commission Financial Statement Audit.

 At the end of this semiannual reporting period, the
 FMC OIG was finalizing their analysis of the FEC
 OIG’s audit assignments and policies and proce-
 dures to provide the FEC OIG with a draft peer re-
 view report.




                                                       11
                                                                Office of Inspector General Semiannual Report to Congress




                                               OIG hotline Information:
�



The OIG hotline exists to enable FEC employees,             has one (1) open hotline complaint as of the close
FEC contractors, and the public to have direct and          of this reporting period.
confidential contact with the OIG. The OIG hotline
consists primarily of a telephone number and email          The OIG frequently receives reports and allegations
address, although the OIG may also be contacted             which are misdirected complaints that should have
through other means, such as the U.S. Mail, fac-            been routed to the Office of Complaints and Legal
simile, inter-office mail, and in-person visits to the      Administration within the Office of General Counsel
OIG suite. All allegations or referrals of fraud, waste,    (OGC), are outside the jurisdiction of the OIG or
abuse, mismanagement, and misconduct involving              the FEC, or are facially unsubstantiated or invalid.
FEC employees, contractors, programs, operations,           For example, Section 437g of the Federal Election
property, or funds received through any means are           Campaign Act of 1971, as amended (FECA), sets
termed “hotline complaints” per OIG policy. Once a          forth strict requirements for reporting alleged viola-
hotline complaint has been received, a preliminary          tions of FECA, and FEC regulations direct that such
inquiry is conducted to determine whether the hot-          complaints be processed through OGC; still, the
line complaint will be closed with no further action        OIG regularly receives complaints of alleged FECA
taken, referred to management or another agency,            violations, many of which are not statutorily compli-
or an investigation will be initiated.                      ant. Reviewing and, where appropriate, responding
                                                            to these reports and allegations when aggregated
The OIG considers many factors when evaluating              can entail a significant amount of staff time and ef-
whether to open an investigation based on a hot-            fort, despite the fact that they are not valid hotline
line complaint, and acknowledges that every hotline         complaints.
complaint received by the OIG cannot be investi-
gated and in many cases do not merit investiga-             In order to capture and document these hotline con-
tion. OIG policy requires that hotline complaints be        tacts, the OIG has created a category for “hotline in-
                                                            quiries” that do not meet the criteria for hotline com-
evaluated on certain criteria, including the merits of
                                                            plaints. For this reporting period, the OIG received
an allegation, the availability of evidence, and the
existing priorities, commitments, and resources of          thirty-four (34) hotline inquiries. Fifteen (15) of the
the OIG. Under this policy, hotline complaints are          hotline inquiries were referred or redirected to other
classified as either high or low priority complaints.       FEC offices, and ten (10) were referred or redirected
High priority complaints are investigated and low pri-      to other agencies, including two (2) that were also
ority complaints are either closed with no action or        referred or redirected to other FEC offices. No fur-
referred to the appropriate official for possible further   ther action was taken in eleven (11) of the hotline in-
review. Hotline evaluation decisions are made by the        quiries, including those in which the OIG was merely
Chief Investigator, with concurrence from the Deputy        copied in on emails, where no specific allegation or
IG.                                                         complaint was made, or where another agency was
                                                            already aware of and handling the issue.
During this semiannual reporting period, no new
hotline complaints were opened and one (1) hotline
complaint, which required a significant number of in-
terviews, was closed with no further action. The OIG



12
October 1, 2010 - March 31, 2011




                                     OIG investigations:
�


                                   OIG investigations seek out facts related to allega-
                                   tions of wrongdoing. OIG investigations may address
                                   administrative, civil, and criminal violations of laws
                                   and regulations. The subject of an OIG investigation
                                   can be any agency employee, an FEC contractor,
                                   consultant, or a person or entity involved in alleged
                                   wrongdoing affecting FEC programs and operations.

                                   The OIG conducts a detailed examination or inquiry
                                   into issues brought to our attention by various sourc-
                                   es. At the conclusion of an OIG investigation, the
                                   OIG prepares a report that sets forth the allegations
                                   and an objective description of the facts developed
                                   during the investigation.

                                   As of the end of the semiannual reporting period,
                                   there is one (1) open investigation, and one (1) in-
                                   vestigation was closed. The closed investigation
                                   involved allegations that an employee’s government
                                   email account had been breached and that a mem-
                                   ber of the employee’s family had received harass-
                                   ing telephone calls. Based on the initial information,
                                   it appeared that the subject or subjects may have
                                   been other FEC employees. Complainant and wit-
                                   ness interviews were conducted, relevant records
                                   were reviewed and government computing and mo-
                                   bile communications devices of several employees
                                   were seized and analyzed.

                                   The investigation was unable to substantiate the al-
                                   legation concerning the harassing telephone calls,
                                   and revealed that the complainant may actually have
                                   been the one who breached the employee’s govern-
                                   ment email account, may have attempted to breach
                                   the employee’s government email account once be-
                                   fore, and may have provided false and misleading
                                   information to OIG investigators.

                                   The Department of Justice declined to prosecute the
                                   matter, and a Report of Investigation was issued to
                                   the Commission


                                                                                       13
             Office of Inspector General Semiannual Report to Congress




     Additional OIG Activity
�



         Besides conducting audits, inspections, and investi-
         gations, the OIG performs, and is involved in an ar-
         ray of additional projects and activities. As required
         by the Inspector General Act of 1978, as amend-
         ed, all legislation compiled by the Commission’s
         Congressional Affairs office is reviewed by the
         Inspector General.

         The Inspector General also reviews and provides
         comments, when appropriate, on legislation provid-
         ed by the Council of Inspectors General on Integrity
         and Efficiency (CIGIE) Legislative Committee. In
         addition, the Inspector General routinely reads all
         Commission agenda items. Listed below are exam-
         ples of the OIG’s additional activities:

           a During this reporting period, the OIG complet-
             ed several internal projects such as updating
             and finalizing the OIG Audit Manual; the OIG’s
             revised Telework Policy was also updated. In
             addition, the OIG completed its documentation
             of the OIG Records Management Process. The
             Records Management Process is a document
             the OIG utilizes to prepare OIG records for
             proper shipping to National Archives Records
             Administration for proper storage and/or de-
             struction of official files/records.
           a The OIG met with representatives from the
             Office of Government Ethics (OGE) to dis-
             cuss their review of the Federal Election
             Commission Ethics program; also reviewed
             final report from the OGE on the FEC Ethics
             program.
           a The IG accompanied four other IGs to Walter
             Reed Hospital to participate in the Wounded
             Warrior program. There they met with service-
             men who had been injured and were in various
             stages of recovery and rehabilitation. A tour of
             the facilities was given, and participants were
             shown some of the equipment/programs used
             to assist in the recovery of injuries.



14
October 1, 2010 - March 31, 2011




          Council of the Inspectors General on
        Integrity and Efficiency (cigie) Activity


                                   The Inspector General continues to be very in-
                                   volved in CIGIE. She is a member of the Executive
                                   Council, which is composed of the Chair, Vice Chair,
                                   the past Vice Chair of the PCIE, all Committee
                                   Chairmen, and one member appointed by the Chair.
                                   The Executive Council provides guidance on CIGIE
                                   initiated projects, the operating plans for each fiscal
                                   year, and the standing up of the CIGIE and the train-
                                   ing academies. The Council meets monthly to dis-
                                   cuss issues that will affect CIGIE.

                                   The Inspector General also Co-Chairs the Inspector
                                   General Candidate Recommendation Panel with the
                                   Justice Department Inspector General. This panel is
                                   charged with making recommendations of qualified
                                   candidates to the White House and heads of vari-
                                   ous federal agencies to be considered for vacant
                                   Inspector General positions.

                                   The Inspector General is Vice Chair of the
                                   Professional Development Committee. This commit-
                                   tee is charged with ensuring there is strong, relevant
                                   training for the Inspector General community. Part of
                                   the charge of the committee, is to establish training
                                   academies for each of the professional designations
                                   in the IG community. This is an on-going project.

                                   During this semiannual reporting period the IG also
                                   chaired and participated in interview panels to se-
                                   lect the Executive Director of CIGIE and the Training
                                   Director of the CIGIE Training Academies.




                                                                                       15
                                                               Office of Inspector General Semiannual Report to Congress




                                                                              OIG Contacts
�



 The table below indicates the total amount of contacts received by the Office of Inspector General for the
 past six months – October 1, 2010 through March 31, 2011.

 These contacts were made through various sources such as telephone calls, e-mails, faxes, U.S. mail, and
 personal visits to the OIG.


                            Total            OIG         No Action        Forwarded
                           Contacts         Action       Necessary        for Action

                            1,089              42          1,007                40




16
October 1, 2010 - March 31, 2011




                                             List of Training, Meetings
                                                       and Conferences

   The chart listed below depicts training, meetings, programs, seminars, and/or conferences attended by the
   Inspector General and/or the OIG staff for the period October 1, 2010 – March 31, 2011:

 MEETINGS:
                       Host / Sponsor                                       Topic / Subject

                                                              Monthly Meetings
                                                              Executive Council Meetings
                         Council of Inspectors General on     Strategic Planning Session
                                   Integrity and Efficiency
                                                              Professional Development Committee Meetings
                                                              Annual Awards Ceremony

         Council of Counsels to the Inspectors General        Monthly Meetings

          Assistant Inspector General for Investigations      Quarterly Meetings

                       Financial Statement Audit Network      Monthly Meetings

                                                              Weekly Director’s Meetings
                                                              Finance Committee Meetings
                             Federal Election Commission      Administrative Liaison Group Meetings
                                                              Disaster Recovery Plan for OIG Meeting
                                                              Town Hall Meeting

                                                              Bi-weekly Staff Meetings
                                                              Financial Statement Audit:
                                                                 Status Meeting
                                                                 Exit Conference
                                                                 Lessons Learned Meeting
                         FEC / Office of Inspector General    Entrance Conference - Follow-up Audits:
                                                                 Procurement and Contract Management
                                                                 Privacy and Data Protection
                                                              Entrance Conference - Peer Review
                                                              Exit Conference – 2010 Follow-up Audit of Privacy
                                                              and Data Protection




                                                                                                               17
                                                       Office of Inspector General Semiannual Report to Congress




TRAINING/CONFERENCES:
�
            Host / Sponsor                                       Topic / Subject

                   U.S. Postal Service / OIG    2010 Biennial National Procurement and Grant Fraud
                                                Conference
                                                Procurement Training Conference
            Federal Audit Executive Council     Grant Fraud and National Procurement Fraud Task
                                                Force and Overview of Government Suspension and
                                                Debarment Process

                                CCH Group       TeamMate User Forum Conference

       Virginia Certified Public Accountants    Ethics and Standards of Conduct for Virginia CPAs
                                                Training

          Council of Inspectors General on      OIG Suspension and Debarment Workshop/Training
                    Integrity and Efficiency    Introductory Auditor Training

                                CIGIE/GAO       Annual Financial Statement Audit Conference

           General Services Administration      GSA Appropriations Law Training

          Executive Women in Government         Annual Summit Conference/Our History is our Strength

               Institute of Internal Auditors   Auditing your HR Function: Assessing Risks and
                                                Developing Internal Controls Training

            U.S. Department of Agriculture      Increasing Personal Effectiveness Training

                                                Generating Creative and Innovative Ideas:
                                                  Enhancing your Creativity Training
                                                Leadership Essentials: Creating your own
                                                   Leadership Development Plan
                                                Leading without Authority Training
                                                Challenges of the 21st Century Training
              Federal Election Commission
                                                Building your Influence as a Leader
                                                FEC Systems Access Workflow System
                                                   Refresher Training
                                                Mandatory Ethics Training
                                                Civility in the Workplace Presentation
                                                Women’s History Month Presentation




18
October 1, 2010 - March 31, 2011




                                                     Reporting Requirements
�

       Reporting requirements required by the Inspector General Act of 1978, as amended by the Inspector
       General Act Amendments of 1988 are listed below:


       IG ACT                      DESCRIPTION                                                                PAGE


      Section 4(a)(2)              Review of Legislation                                                        15

      Section 5(a)(1)              Significant Problems, Abuses, and Deficiencies                              None

      Section 5(a)(2)              Recommendations with Respect to Significant Problems, Abuses,               None
                                   and Deficiencies

      Section 5(a)(3)              Recommendations Included in Previous Reports on Which Corrective             22
                                   Action Has Not Been Completed (Table III)

      Section 5(a)(4)              Matters Referred to Prosecuting Authorities                                 None

      Section 5(a)(5)              Summary of Instances Where Information was Refused                          None

      Section 5(a)(7)              Summary of Significant Reports                                               5

      Section 5(a)(8)              Questioned and Unsupported Costs (Table I)                                   20

      Section 5(a)(9)              Recommendations that Funds be put to Better Use (Table II)                   21

      Section 5(a)(10)             Summary of Audit Reports issued before the start of the Reporting Period    N/A
                                   for which no Management Decision has been made

      Section 5(a)(11)             Significant revised Management Decisions                                    N/A

      Section 5(a)(12)             Management Decisions with which the Inspector General is                    None
                                   in Disagreement




                                                                                                                     19
                                                       Office of Inspector General Semiannual Report to Congress




                                                                                          TABLE I


INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS
(DOLLAR VALUE IN THOUSANDS)



                                                     Number       Questioned            Unsupported
                                                                    Costs                  Costs

A. For which no management decision has been made      0                  0                       0
   by commencement of the reporting period


B. Which were issued during the reporting period       0                  0                       0


     Sub-Totals (A&B)                                  0                  0                      0


C. For which a management decision was made during     0                  0                      0
   the reporting period


     (i) Dollar value of disallowed costs              0                  0                      0


     (ii) Dollar value of costs not disallowed         0                  0                      0


D. For which no management decision has been made      0                  0                      0
   by the end of the reporting period

E. Reports for which no management decision was        0                  0                      0
   made within six months of issuance




20
October 1, 2010 - March 31, 2011




                                                                              TABLE II


 INSPECTOR GENERAL ISSUED REPORTS WITH RECOMMENDATIONS THAT
 FUNDS BE PUT TO BETTER USE


                                                                     Number     Dollar Value
                                                                              (In Thousands)
   A. For which no management decision has been made by the            0            0
      commencement of the reporting period

   B. Which were issued during the reporting period                    0            0

   C. For which a management decision was made during the re-          0            0
      porting period
      (i) dollar value of recommendations were agreed to by            0            0
          management

          based on proposed management action                          0            0

          based on proposed legislative action                         0            0

      (ii) dollar value of recommendations that were not agreed to     0            0
           by management
   D. For which no management decision has been made by the            0            0
      end of the reporting period
   E. Reports for which no management decision was made within         0            0
      six months of issuance




                                                                                          21
                                                                    Office of Inspector General Semiannual Report to Congress




                                                                                                   TABLE III


SUMMARY OF AUDIT REPORTS WITH CORRECTIVE ACTIONS OUTSTANDING FOR
MORE THAN SIX MONTHS

                                                                              Recommendations
          Report Title                       Report               Issue Date       Number          Closed           Open
                                             Number

     PII Inspection Report1                 OIG-06-04               11/06              6              1               5

     2007 Performance Audit of              OIG-07-02               12/07             13              2              11
     Privacy and Data Protection2

     2008 Audit of Procurement and          OIG-08-02               09/09             15              0              15
     Contract Management3
     Audit Follow-up Review of the
     FEC’s Employee Transit Benefit         OIG-08-03               07/09             51              0              51
     Program
     Audit of the Commission’s              OIG-09-02               03/10             36              0              36
     Property Management Controls




 1 The 5 open recommendations are included in the recent 2010 Follow-up Audit of Privacy and Data Protection.
 2 The 11 open recommendations are included in the recent 2010 Follow-up Audit of Privacy and Data Protection.
 3 An audit follow-up of the 15 open recommendations is currently in progress.




22
October 1, 2010 - March 31, 2011




                    APPENDIX A: PEER REVIEW RESULTS

     Peer Review Conducted by       Date Report Issued            Recommendations
             FEC OIG
        Commodity Futures Trade        March 31, 2011                    29
        Commission (CFTC) OIG




 The FEC OIG is currently undergoing a peer review being conducted by the Federal
 Maritime Commission OIG.




                                                                                    23
                         Federal Election Commission
                           Office of Inspector General




Fraud Hotline
202-694-1015
                        or toll free at 1-800-424-9530 (press 0; then dial 1015)
                         Fax us at 202-501-8134 or e-mail us at oig@fec.gov
             Visit or write to us at 999 E Street, N.W., Suite 940, Washington DC 20463

Individuals including FEC and FEC contractor employees are encouraged to alert the OIG to fraud, waste,
abuse, and mismanagement of agency programs and operations. Individuals who contact the OIG can remain
anonymous. However, persons who report allegations are encouraged to provide their contact information in the event
additional questions arise as the OIG evaluates the allegations. Allegations with limited details or merit may be held
in abeyance until further specific details are reported or obtained. Pursuant to the Inspector General Act of 1978, as
amended, the Inspector General will not disclose the identity of an individual who provides information without the
consent of that individual, unless the Inspector General determines that such disclosure is unavoidable during the
course of an investigation. To learn more about the OIG, visit our Website at: http://www.fec.gov/fecig/fecig.shtml

                                    Together we can make a difference.
